                                                    SENSITIVE BUT UNCLASSIFIED



                                              United States Department of State
                                           and the Broadcasting Board of Governors
                                                  Office of Inspector General
Office of Inspector General

                                                 Office of Inspections

                                                  Inspection of
                                          Embassy Ulaanbaatar, Mongolia

                                            Report Number ISP-I-11-58A, August 2011




                                                                Important Notice

                              This report is intended solely for the official use of the Department of State or the
                              Broadcasting Board of Governors, or any agency or organization receiving a copy
                              directly from the Office of Inspector General. No secondary distribution may be made,
                              in whole or in part, outside the Department of State or the Broadcasting Board of
                              Governors, by them or by other agencies of organizations, without prior authorization
                              by the Inspector General. Public availability of the document will be determined by the
                              Inspector General under the U.S. Code, 5 U.S.C. 552.Improper disclosure of this report
                              may result in criminal, civil, or administrative penalties.




                                                    SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



                    PURPOSE, SCOPE, AND METHODOLOGY
                           OF THE INSPECTION

        This inspection was conducted in accordance with the Quality Standards for Inspection
and Evaluation, as issued in 2011 by the Council of Inspectors General on Integrity and
Efficiency, and the Inspector’s Handbook, as issued by the Office of Inspector General (OIG) for
the U.S. Department of State (Department) and the Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign Service
Act of 1980:

       •   Policy Implementation: whether policy goals and objectives are being effectively
           achieved; whether U.S. interests are being accurately and effectively represented; and
           whether all elements of an office or mission are being adequately coordinated.

       •   Resource Management: whether resources are being used and managed with
           maximum efficiency, effectiveness, and economy and whether financial transactions
           and accounts are properly conducted, maintained, and reported.

       •   Management Controls: whether the administration of activities and operations meets
           the requirements of applicable laws and regulations; whether internal management
           controls have been instituted to ensure quality of performance and reduce the
           likelihood of mismanagement; whether instance of fraud, waste, or abuse exist; and
           whether adequate steps for detection, correction, and prevention have been taken.

METHODOLOGY

In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate, circulated,
reviewed, and compiled the results of survey instruments; conducted on-site interviews; and
reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                                           i
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED




                                                    United States Department of State
                                                    and the Broadcasting Board of Governors

                                                    Office of Inspector General




                                         PREFACE


     This report was prepared by the Office of Inspector General (OIG) pursuant to the Inspector
General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980, as
amended. It is one of a series of audit, inspection, investigative, and special reports prepared by
OIG periodically as part of its responsibility to promote effective management, accountability
and positive change in the Department of State and the Broadcasting Board of Governors.

     This report is the result of an assessment of the strengths and weaknesses of the office, post,
or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

      The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective,
efficient, and/or economical operations.

     I express my appreciation to all of those who contributed to the preparation of this report.




                                           Harold W. Geisel
                                           Deputy Inspector General




                                           ii
                              SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


                                Table of Contents

Key Judgments                                            1
Context                                                  2
Executive Direction                                      4
  Policy Direction and Program Implementation            4
  Security and Management Programs                       5
Policy and Program Implementation                        6
  Reporting and Analysis                                 6
  Political Section                                      6
  Economic/Commercial Section                            8
  Public Diplomacy                                       9
  Consular Affairs                                      11
Resource Management                                     14
  Human Resources                                       16
  Financial Management                                  18
  General Services                                      19
  Information Management                                20
Quality of Life                                         23
  Medical Unit                                          23
  Community Liaison Office                              23
  Schools                                               24
Management Controls                                     25
List of Recommendations                                 28
List of Informal Recommendations                        30
Principal Officials                                     32
Abbreviations                                           33




                                       iii
                           SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED


Key Judgments
•   The Ambassador and the deputy chief of mission (DCM) work well together to
    provide clear policy direction and leadership of the embassy. The Ambassador
    effectively advances U.S. political, economic, security, and commercial interests
    through his extensive contacts with Mongolian leaders and society, continuous
    public diplomacy efforts, and good communication with U.S. policymakers. The
    Ambassador and DCM exercise strong leadership of a unified country team, which
    works collaboratively on political, development, security, economic, and commercial
    goals.

•   Embassy officers have established close working relationships with Mongolians in
    many spheres, most significantly in global efforts on peacekeeping and stabilization
    (security efforts) and on human rights. The mission’s activism also has led Mongolia
    to be more open to U.S. exports and investments.

•   Morale in Embassy Ulaanbaatar is notably high among American and Mongolian
    employees, despite the country’s harsh climate and isolation. The Ambassador and
    the DCM contribute significantly to morale through their openness, easy
    accessibility, and strong support for an excellent community liaison program.

•   Management controls at Embassy Ulaanbaatar need attention. What was formerly a
    small embassy challenged by isolation is now a mid-sized mission in a growing
    capital, with an accompanying growth in the complexity of internal communication
    and program implementation. The management section delivers good service
    overall, but it must do more to formalize procedures and planning to support the
    embassy and maintain good morale.

•   The embassy must engage with the Department and the Government of Mongolia to
    develop a mechanism to recover approximately $730,000 in anticipated local taxes
    on supplies and services for the major chancery renovation currently underway.



The inspection took place in Washington, DC, between April 11 and 29, 2011, and in
Ulaanbaatar, Mongolia, between May 26 and June 9, 2011. (b) (6)




                                      1
                         SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED


Context
       Mongolia is a vast country about the size of Alaska, with a sparse population of 2.8
million, nearly half living in urban centers, including the capital, Ulaanbaatar. Mongolia is
an important example in Asia of how to manage an economic transition from a centrally
planned economy to a free market economy within a maturing democratic political
framework.

       Since 1990, Mongolia has held successive, free and fair, multiparty elections for the
presidency and legislative assembly. Mongolia values its relationship with the United States
as one of its most important “third neighbors” beyond its immediate borders. Other “third
neighbors” identified in Mongolia’s security policy are Japan, South Korea, India, and
Europe. Mongolia is building regional and global credentials by taking an active role in UN
agencies and regional organizations. Mongolia will assume chairmanship of the Community
of Democracies in July 2011. It is a significant contributor of troops to coalition efforts in
Afghanistan and Iraq, and to UN peacekeeping operations in Africa, the Middle East, and
elsewhere.

         Ninety percent of Mongolia’s territory is either pasture or desert; only 1 percent
of the land is arable, and the rest is mountainous. Severe climate conditions mean
agricultural livelihoods are fragile. Seventy percent of the economy now is held by the
private sector. Mongolia is developing the mining sector, expanding transportation and
communication networks, and diversifying into service industries. The financial sector
remains underdeveloped. Global commodity price swings cause volatility in an economy
that is reliant on raw material exports. The economy remains heavily influenced by
Russia and China. Russia is the source of 95 percent of Mongolia’s imported petroleum
products, while China accounts for more than three-quarters of its total external trade.

        Mongolia is poised to double its gross domestic product in the next 5 years, due
to accelerated mining exploitation that will bring significant profits for both the public
and private sectors, including tremendous opportunities for American investors and
exporters of heavy equipment. The economic boom also presents Mongolia with the
challenges of restraining inflation, battling corruption, generating employment
opportunities beyond the mining sector, and providing adequate social services and a
reasonable standard of living for the whole population. Mongolian Government officials
recognize these challenges and their limitations, which include an inefficient
bureaucracy, inadequate political will to fight corruption, and weak capacity to
implement laws and policies. U.S. assistance and advocacy are being directed to help
Mongolia meet these challenges.

        The year 2012 marks the 25th anniversary of U.S.–Mongolian diplomatic ties,
and 2011 marks the 20th anniversaries of the presence of the U.S. Agency for
International Development (USAID) and the Peace Corps. USAID development
assistance will average about $6 million annually over the next 5 years. The Millennium
Challenge Corporation (MCC) is halfway through a 5-year, $285 million compact. The
mission is engaged in promoting U.S. objectives on security and nonproliferation,

                                      2
                         SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED

democratic governance, economic growth, environmentally sustainable development,
commercial advocacy, and the enhancement of educational and cultural relations.

       The Department’s operating budget for Mission Mongolia totaled $6.5 million
for FY 2010. Since the 2004 OIG report, U.S. direct-hire staffing has more than
doubled, to 42 U.S. direct-hires. There are also 8 locally employed (LE) Americans and
129 local employees.




                                     3
                        SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED


Executive Direction
Policy Direction and Program Implementation

        The Ambassador and DCM work well together and share the executive direction
of the mission. The Ambassador has extensive experience in Mongolia and throughout
Asia and has clear ideas of what U.S. policy goals in Mongolia should be and how to
achieve them. He articulates a vision of continued progress toward a market economy;
more effective democratic governance; increased military capability for peacekeeping
and crisis response; increased support for U.S. policies, goals, and values; and
strengthened controls to prevent the proliferation of weapons of mass destruction. The
Ambassador provides guidance in his chief of mission statement of the Mission Strategic
and Resource Plan (MSRP). He also emphasizes MSRP goals with embassy staff during
regular meetings, with the many executive and legislative branch visitors to Mongolia,
and with the Department and other agency policy makers with whom he directly
communicates. Building on the Ambassador’s key goals, embassy sections contribute to
the MSRP preparation, although their performance indicators are not all realistically
measurable.

        The Ambassador has a broad and deep range of contacts in the Mongolian
Government and society, with whom he advocates U.S. policy goals. He seeks the
implementation of these goals through a range of program activities the United States
carries out in Mongolia. He has easy access to the highest levels of the Mongolian
Government and uses that access effectively to advance U.S. policy goals. The
Ambassador also conducts an extensive public speaking schedule throughout Mongolia
and gives frequent print and electronic media interviews. In these forums, the
Ambassador advocates U.S. policy in favor of increased economic, political, and
military cooperation. He also advocates vigorously and effectively for U.S. commercial
and investment opportunities with senior government and economic leaders.

        The Ambassador carries out the larger share of outside representation and public
speaking, while the DCM’s primary focus is the day-to-day management of the
embassy. The Ambassador and DCM talk regularly each day, ensuring that they have a
common understanding and approach to the issues they face. The DCM is totally
conversant with all the policy issues, has the Ambassador’s full trust, and exercises a
share of representational and public diplomacy activities. All section and agency heads
in the embassy expressed confidence that the DCM speaks for the Ambassador on the
policy and operational issues they raise with the DCM. The Ambassador and DCM
together provide strong leadership and effective management of the embassy yet, as
described elsewhere in this report, management controls need attention.

        The country team meets weekly, and agency and section heads review issues and
programs for the Ambassador and DCM in this meeting. The Ambassador and DCM
also meet regularly with the political and economic/commercial sections, USAID
representative, and the MCC representative. They also consult the Defense attaché on
security assistance and military cooperation issues. The DCM takes the lead role in

                                      4
                         SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED

overseeing the management, consular, public affairs, and regional security sections,
providing necessary support and guidance for their operational and program issues. The
DCM also meets weekly with the medical officer and the community liaison office
coordinator. The OIG team observed that the Ambassador and DCM provide the
appropriate level of policy guidance and supervision through these scheduled meetings,
as well as in the informal exchanges encouraged by their open door policies and their
habit of conversing informally with U.S. direct-hire and LE staff in the cafeteria.

Security and Management Programs

        The Ambassador and DCM provide strong support to the embassy security
program. The DCM meets weekly with the regional security officer (RSO), and the two
confer immediately whenever an important issue arises.

        The DCM’s pragmatic, problem solving style encourages open communication.
He holds a regularly scheduled, weekly meeting with the management officer,
supplemented by frequent discussions to address any operational problems in the
embassy. The embassy failed to make a number of designations in a timely fashion over
the past year, including that of an Equal Employment Opportunity (EEO) counselor.
However, the embassy recently identified an individual to serve as EEO counselor, who
will receive training in Washington before arriving in Ulaanbaatar in the summer of
2011.

        The Ambassador exercises appropriate chief of mission authority over all U.S.
Government agencies in Ulaanbaatar, measuring requests for additional staff to address
perceived needs against policy perceptions and the additional security and administrative
costs of adding more positions.

Entry-Level Officers

        The embassy has a small but growing number of entry-level generalists and
specialists. It does not currently have a formal entry-level officer (ELO) program. The
Ambassador has met with ELOs, and the DCM has invited ELOs to lunch on several
occasions in order to have informal exchanges and provide mentoring. In this small
embassy, informal mentoring opportunities are frequent.

Morale

        The Ambassador and DCM contribute significantly to the high morale that the
OIG team found in Embassy Ulaanbaatar. Their open and positive attitudes and clear
enthusiasm for Mongolia and for U.S. programs in the country help inspire other staff
members with similar enthusiasm for their own roles. The Ambassador and DCM
provide strong support to an excellent community liaison program, sponsor their own
social events for the U.S. direct-hire and LE staff, and participate regularly in
community events. Their genuine concern for staff welfare and their easy accessibility
are strong boosts to good community morale in a difficult place.

                                      5
                         SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


Policy and Program Implementation
Reporting and Analysis

        A mid-level political officer and a mid-level economic officer undertake most
reporting and analysis, in close collaboration with the DCM and capable ELOs and LE
staff. The mission efficiently manages its required reporting and produces an appropriate
number of timely cables. Cables are well sourced and have useful context, but they
could be more succinct to attract greater readership. Reporting meets the expressed
policy interests of U.S. Government consumers, and it is enhanced by worthwhile
voluntary submissions, e.g., on developments in Mongolia’s provinces and perspectives
on Mongolia’s relations with third countries. The mission sends numerous emails,
including daily summaries to the Department. The mission requested guidance from the
OIG team on how to improve official access to information. The inspectors suggested
using the record email function of the State Messaging and Archive Retrieval Toolset
system for messages such as updates on commercial affairs.

       Informal Recommendation 1: Embassy Ulaanbaatar should make appropriate
       use of the State Messaging and Archive Retrieval Toolset record email function.

        Washington consumers commend the biographic reporting submitted to the
Department’s classified and unclassified biographic Web sites. As time is available, the
small staff is working to update biographic files. The inspectors found that not every
section of the embassy with meaningful contacts is contributing to biographic reporting.

       Informal Recommendation 2: Embassy Ulaanbaatar should include all mission
       elements in contributions to biographic reporting.

        Mongolia’s harsh climate means that most visitors come during the short
summer season. Visitor programming is well done, and it offers opportunities to expand
reporting and deepen relationships with Mongolian counterparts.

        For several years, the mission has had separate sections for political affairs and
for economic/commercial affairs. The sections work closely with each other and with
other sections and agencies. In May 2011, the sections held a joint, off-site session, in
anticipation of an interim arrangement that will combine the sections because of an
expected 6-month vacancy in the economic/commercial chief position. The mission
plans to revert to a structure of two sections, which has the advantage of offering
supervisory experience to both mid-level section chiefs.

Political Section

        The political section capably handles a wide range of bilateral and multilateral
issues. Political officers have cultivated many contacts beyond the capital, in order to
understand domestic political issues, including on labor. These contacts can be expected
to help the embassy assess how the outcomes of Mongolia’s 2012 and 2013 elections

                                       6
                          SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED

will affect U.S. interests. The section, with other mission elements, is productively
involved in efforts to counter human trafficking, protect third-country refugees, and
enhance human rights policies and nuclear nonproliferation measures in UN forums. The
embassy engages in extensive political-military activities, such as senior-level, bilateral
military consultations; capacity building for the Mongolian military forces; and close
coordination with the Mongolian military on the latter’s valued (and recently doubled)
participation in coalition efforts in Afghanistan. Internal cooperation is good, but the
embassy has not always succeeded in matching Mongolia’s military assistance requests
with U.S. funding priorities.
        Despite an increased number of convictions by Mongolian authorities under
legislation to counter trafficking in persons, trafficking remains a problem. A political
officer oversees grants to counter human trafficking, which are implemented by
nongovernmental organizations. The designated grants officer is located in Washington.
At the time of the inspection, one such grant was near completion; a second large grant
application was pending for award. To help assure proper usage of U.S. funds over the
course of the grants, the political officer needs to receive grants training, e.g., the
Foreign Service Institute’s Monitoring Grants and Cooperative Agreements (PY222).
       Informal Recommendation 3: Embassy Ulaanbaatar should direct the political
       officer who oversees grant funds to complete appropriate Foreign Service
       Institute distance learning courses in grants management.

Leahy Human Rights Vetting

       Mongolia is subject to a fast track arrangement that facilitates the processing of
candidates for U.S.-funded police and military security personnel training. The OIG
team found that some embassy employees did not understand how to comply with the
Leahy human rights vetting requirements. In addition, relevant mission elements did not
know that the political section is responsible for coordinating the Leahy process.
Employees involved with Leahy vetting need to complete appropriate studies, such as
the Foreign Service Institute’s distance learning course, INVEST: Leahy Vetting at Post
(PP-410).
Recommendation 1: Embassy Ulaanbaatar, in coordination with the Bureau of
Democracy, Human Rights and Labor, should designate primary and secondary
coordinators for the Leahy vetting program and should provide the training and
authorization they need to use the International Vetting and Security Tracking system.
(Action: Embassy Ulaanbaatar, in coordination with DRL)
Recommendation 2: Embassy Ulaanbaatar should issue an annual, mission-wide
notice explaining Leahy vetting requirements, including the requirement that relevant
embassy sections, such as the regional security office, consular section, and Defense
attaché, participate in the clearance process. (Action: Embassy Ulaanbaatar)




                                      7
                         SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED


Law Enforcement and Narcotics Affairs

        The RSO has responsibility for law enforcement activities and coordinates with
the legal attaché’s office, as well as a Drug Enforcement Administration office in
Beijing. A political officer serves as the narcotics coordinator. The inspection team
judged that the mission’s size facilitates ready communication and coordination on a
relatively low level of law enforcement activities, without need for a formal structure.

Economic/Commercial Section

        The economic/commercial section performs well in encouraging Mongolia to
carry out economic and trade policy reforms, improve the business climate, and initiate
negotiation of a bilateral aviation services agreement. Led by the Ambassador, the
section conducts effective advocacy for specific American companies. The
economic/commercial section obtains support, as necessary, from regional Foreign
Commercial Service and from Foreign Agricultural Service representatives in Beijing.
The regional Foreign Agricultural Service office is especially responsive to mission
requests. The embassy also has enlisted the Department of Agriculture to provide
commodity aid to help Mongolia increase rural incomes and promote economic
diversification. The embassy makes good use of U.S. programs, such as the Overseas
Private Investment Corporation.

        Bilateral trade grew from $55 million in 2009 to $126 million in 2010, primarily
in U.S. exports. While modest, U.S. exports reached $114 million in 2010, and
indications are that they will be even larger in 2011. The section proactively takes
measures to promote U.S. goods and services exports in Mongolia, where transport costs
can erode the competitiveness of American products. To expand its marketing outreach,
the section has recruited the Washington-based Department of Commerce trade officer
for Mongolia to visit annually. Mongolian buyers are more cognizant that an initial
higher investment in quality products—particularly for American mining, agricultural,
and transport equipment—can prove to be a better choice than lower-price products
from traditional, regional suppliers. American retail exports also are gaining a foothold
in the Mongolian market. Larger numbers of Mongolian business executives are
traveling to trade fairs in the United States.

Environment, Science, Technology, and Health Affairs

       The economic/commercial section gained an entry-level environment, science,
technology, and health (ESTH) position in FY 2010. The first-tour ESTH officer also
oversees nonproliferation training programs and export controls. The economic chief
and DCM provide good guidance to the ESTH officer, who refers readily to the regional
ESTH officer in Bangkok and also seeks specialized help from the Bureau of Oceans
and International Environmental and Scientific Affairs.




                                      8
                         SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


Foreign Assistance

        The economic/commercial section consults regularly with the USAID and MCC
offices to avoid duplication and to reinforce joint objectives, particularly countering
corruption. USAID has shifted its focus from emergency and humanitarian aid to the
promotion of good governance and environmentally sustainable economic growth.
USAID’s assistance to Mongolia is expected to average about $6 million annually in the
next 5 years. USAID’s location in the embassy facilitates coordination, e.g., in preparing
the MSRP. Supplemental foreign assistance funding in FY 2009 and FY 2010 provided
budget support to the Government of Mongolia during the global financial crisis; it also
funded expert advisors assigned by the Department of the Treasury to help Mongolian
officials address financial and banking reforms. MCC is halfway through a 5-year $285
million bilateral compact agreement with Mongolia that focuses on improving
vocational education and expanding health promotion. Mongolians hold the Peace Corps
program in high esteem. The program focuses on teaching English and fostering health
and has volunteers in virtually every province. Mission officers hold formal and
informal discussions on aid plans with other donors. The inspection team encountered a
number of Mongolian officials and representatives of other governments and
nongovernmental organizations who reported that the effective donor coordination
promotes synergy in implementing assistance programs.

Public Diplomacy

       The public affairs section consists of the public affairs officer and six (soon to be
seven) Foreign Service nationals. With this small staff, they manage the full complement
of exchange programs and a limited number of speaker and media programs.

       As there is no Fulbright Commission in Mongolia, the public affairs section
oversees Fulbright programs, which are very popular in Mongolia. For example, more
than 100 Mongolians applied for only 8 spaces in the Fulbright Foreign Student
Program, and more than 50 Mongolians applied for only 4 places in the Hubert H.
Humphrey Fellowship Program. In FY 2010, the United States provided $500,000 for
the Fulbright Program and, beginning this year, the Government of Mongolia will
provide $300,000.

       The Bureau of International Information Programs supports one speaker per year
for Mongolia. The public affairs section supplements this speaker with Fulbright
program participants, English teaching assistants, and embassy staff.

        There are two American Corners in Mongolia: one in Ulaanbaatar and one in
Khovd, in western Mongolia. Both Corners attract significant numbers of Mongolian
visitors: in April 2011, the American Corner in Ulaanbaatar recorded 2,807 visitors; in
March 2011, the American Corner in Khovd attracted 375 visitors. Both Corners
conduct regular programs, including video screenings. The section also regularly places
press releases and opinion pieces in the Mongolian media.


                                       9
                          SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED

        The section has had great success in obtaining grants for the embassy from the
Department’s Ambassador’s Fund for Cultural Preservation. In FY 2010, the section
was awarded funds for three grants, including a $586,000 grant to preserve an early 18th
century Buddhist monastery. The OIG team noted that the public affairs officer visited
the monastery site four times during the year prior to the inspection, providing oversight
for the large project.

       A review of the embassy’s 2011 and 2012 MSRPs, plus the MSRP draft for
2013, found that public diplomacy activities were not integrated into all appropriate
MSRP goals. While doing so is not a requirement, it does help ensure that the embassy
uses public diplomacy tools to meet embassy goals.

         Public diplomacy tools can be valuable to achieving embassy goals in almost all
of the areas addressed in the embassy’s MSRP. Offices in the Bureau of Educational and
Cultural Affairs and in the Bureau of International Information Programs have materials
and programs to support economic and business issues; democratization, good
governance, rule of law, nonproliferation, and trafficking in persons. For example, the
list of publications available from the Bureau of International Information Programs is
15 pages long and includes electronic and printed items on all the topics in the
embassy’s MSRP. Speaker programs include the U.S. speaker program (bringing U.S.
speakers to Mongolia) as well as digital video conferences, telephonic conferences, Web
chats, and podcasts. Integrating the public affairs section and public diplomacy materials
and programs into embassy efforts to achieve high priority goals would help the
embassy work toward those goals.

Recommendation 3: Embassy Ulaanbaatar should create a written plan, supplementary
to the Mission Strategic and Resource Plan, to integrate the use of public diplomacy
tools into embassy work on all appropriate goals. (Action: Embassy Ulaanbaatar)

        The Information Resource Center associate has not made outreach calls on
important embassy contacts to explain the research resources available and to offer
research assistance, as recommended in the regional information resource officer’s
reports of 2009 and 2010.

       Informal Recommendation 4: Embassy Ulaanbaatar should make outreach
       calls to promote the use of its Information Resource Center.

        The American Corner book collection in Ulaanbaatar contains materials that do
not belong in an American Corner collection (for example, fiction by the British authors
William Thackeray and George Eliot). The inspection team did not have an opportunity
to determine whether there were such volumes in the collection at the American Corner
at Khovd.

       Informal Recommendation 5: Embassy Ulaanbaatar should review the book
       collection at the American Corners in Ulaanbaatar and Khovd and donate any
       materials it removes from the collection to an appropriate Mongolian institution.

                                     10
                         SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED

        Embassy Ulaanbaatar’s public Web site is updated only once or twice per week.
The site should be updated at least daily, so that visitors have access to the latest
information.
       Informal Recommendation 6: Embassy Ulaanbaatar should update its public
       Web site every workday.
Consular Affairs

       The consular section provides effective and courteous service, despite crowded
working conditions and a relatively inexperienced staff. The section also has good relations
with other sections of the embassy. The LE staff is engaged and enthusiastic. A regional
consular officer stationed in Bangkok provides guidance through email and telephone calls
and also visits the embassy twice a year, most recently in April 2011.

Consular Management

        The size of the section requires the section chief to serve as both a manager and
adjudicating officer, and it is challenging to balance operational tasks with management
responsibilities for updating policies, planning workload, performing, and internal
communication. The chief adjudicates just under half the nonimmigrant visa cases, an
equitable distribution of the daily workload that enables the ELO to cover other consular
functions, conduct some outreach, and help provide support for high level visitors. The
officers and LE staff meet once a week as a group. Information is shared openly and
everyone participates, providing updates on current tasks as well as discussing future plans.

       Each LE staff member works on nonimmigrant visas every morning, but also has a
well defined, individual portfolio. All have taken formal training, including online courses
appropriate to their duties, and most have attended Foreign Service Institute training
courses or workshops in Washington. The LE staff reported a high level of satisfaction with
their work, and their team spirit is evident.

       The chancery renovation project currently underway will ease crowding in the work
area and in the waiting room, allowing for greater privacy during consular interviews.

American Citizens Services

        Routine services to U.S. citizens are offered twice a week in the afternoons, and
the embassy handles emergencies as they arise. At the time of the inspection, the
consular section was planning to implement an appointment system. There is insufficient
waiting room space to accommodate visa applicants and U.S. citizens at the same time.
Although there are few Americans currently resident in Mongolia, an increasing number
of children born in the United States are being sent back to school in Mongolia by their
working parents. Some parents may eventually need information about what to do to
prevent or respond to child custody disputes, but the embassy has not posted country-
specific information about international parental child abduction on the Department’s
consular affairs Web site.

                                     11
                         SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

       Informal Recommendation 7: Embassy Ulaanbaatar should prepare country-
       specific information about international parental child abduction, for public
       dissemination on the Department’s consular affairs Web site.

        The embassy has a developed warden network and holds an annual warden
meeting. Many U.S. citizens in Mongolia are missionaries or nongovernmental
organization workers, whose administrative offices participate in the warden system.
The consular chief has established a text messaging network, but this system of
notification is not yet reliable. Only a few business representatives are permanently
based in Mongolia, and there are not enough of them at this time to warrant establishing
an overseas security advisory council.
Nonimmigrant Visas
Referral Policy

        The embassy’s visa referral policy, as published in its management notice of
May 2011, is outdated and does not contain the language required in 9 FAM, Appendix
K, as amended in September 2010. The worldwide policy requires that only officers who
attend a referral policy briefing and certify that they have read the policy are permitted
to refer visa cases. Some of the embassy’s referring officers have signed an
acknowledgement that they have read the current policy, but since that policy was not
disseminated in the relevant management notice, the inspectors had no way to confirm
this. The inspectors also found that the section’s records regarding the referring officers’
compliance with this directive were incomplete.

Recommendation 4: Embassy Ulaanbaatar should promulgate in a management notice
the Department’s most current visa referral policy, along with post-specific procedural
guidelines; require all referring officers, before referring any more visa applicants, to
attend a briefing on the new policy and certify that they understand it; and update and
maintain the embassy’s records regarding the referring officers’ compliance with this
directive. (Action: Embassy Ulaanbaatar)

        Until recently, more than half the embassy’s visa referral cases were initiated by
the economic/commercial section, on behalf of applicants going to U.S.-sponsored trade
shows. Not long ago, the consular section learned that some delegation organizers had
added to the list of applicants the names of people who were not members of the
delegation, believing these cases would thereby receive more favorable consideration.
The section now instructs members of trade delegations to use the embassy’s successful
business executive program, which allows participants to request an expedited visa
interview appointment.

Fraud Prevention Programs
        An LE staff investigator maintains excellent contacts among the Mongolian
police and Mongolian authorities who issue civil documents. The consular fraud
investigator and the regional security office’s investigator work cooperatively.

                                      12
                          SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED


Visas Viper Program

        Embassy Ulaanbaatar discusses Visas Viper in its regular country team meetings,
and the consular section submits all required reports on time. The meeting the OIG team
observed was conducted in a pro forma manner, and it was not clear that those present
understood how they were supposed to participate. The embassy did not make any
classified Visas Viper submissions during the past year. Guidance on the Visas Viper
program, including examples of the types of submissions, is available at 9 FAM 40.37.

       Informal Recommendation 8: Embassy Ulaanbaatar should provide all Visas
       Viper representatives with a clear explanation of the benefits of the Visas Viper
       program and examples of the breadth of submissions that other posts have made
       through the program.




                                     13
                         SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Resource Management
Agency                         U.S.          U.S.        Foreign        Total        Total
                              Direct-       Local-       National       Staff       Funding
                             Hire Staff      Hire         Staff                     FY 2010
                                            Staff
State – D&CP                         17              4         32          53 $1,906,548
State – ICASS                         4              4         71          79 $3,082,800
State – Public Diplomacy              1              -          8           9   $248,696
State – Diplomatic                     1             -              -           -    $163,491
Security
State – Representation                 -             -          -           -    $17,020
State – OBO                            4             -          -          16 $1,083,142
Department of Defense -                5             -          1           6   $346,207
Defense Attaché Office
Department of Defense –                -             -          3           3                 -
Office of Defense
Cooperation
Department of the                      2             -          1           3         $19,254
Treasury – Office of
Technical Assistance
Millennium Challenge                   2             -          3           5       $291,054*
Corporation
Peace Corps                            3             -          3           6                 -
United States Agency for               3             -          7          10                 -
International
Development
Totals                               42              8        129         190 $7,158,212
*Operating   budget only

Management Operations

        Embassy Ulaanbaatar’s management section delivers good service to the
embassy community. The management officer, serving in an out-of-cone tour, has
worked to build administrative expertise at a small post where employees must regularly
perform multiple job responsibilities. Scores on the OIG administrative services
questionnaires were at or above Department averages for all services, with the exception
of information management services, discussed in detail below. Community morale
overall is excellent, in part because of the efforts of an especially energetic community
liaison office coordinator.

       Since the 2004 inspection, authorized U.S. direct-hire positions at the embassy
have more than doubled, leading to overcrowding in the chancery and annex and an
increased workload for the management section. The Department has initiated a $27
million major renovation project to address the chancery’s security and functionality

                                       14
                           SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED

deficiencies. The renovation will entail a comprehensive facilities upgrade, and
executing it will be the embassy’s most important administrative challenge in coming
years.

        The embassy has requested an additional financial management/human resources
officer position in the FY 2013 MSRP. Such a position may be necessary, but in the
meantime the embassy could make more use of LE staff and regional support.

         As the embassy manages the transition from a small post to a medium-sized post,
it will need to move from ad hoc procedures to more strategically planned and systemic
management operations, especially with respect to budget planning and communication
between the management section and its interagency customers. The OIG team provided
counseling on ways to reduce the management officer’s daily workload, to allow time
for longer term planning.

Value Added Tax Collection for Chancery Renovation Project

        In the spring of 2011, the Department initiated the first phase of a $27 million
project to renovate the chancery and annex. According to project staff, the U.S.
Government will pay approximately $730,000 to the local government in value added
taxes for the acquisition of supplies and services related to this project. Although the
embassy has in place procedures to claim refunds for goods and services purchased
under the name of the embassy, the Government of Mongolia has indicated that it cannot
reimburse value added tax paid on behalf of the U.S. Government by a contractor.

        Neither the embassy nor the Bureau of Overseas Buildings Operations (OBO)
has established procedures to recover value added taxes paid to Mongolia to procure
goods and services for this project. OBO has developed a mitigation strategy to buy
materials outside Mongolia, to the greatest extent practicable. The absence of a
mechanism to recover value added tax payments raises the risk that the U.S.
Government may be unable to recover the $730,000 in taxes it expects to pay for this
project. The embassy must take steps to raise this issue at higher levels with the
Government of Mongolia – to include negotiation of a bilateral agreement and/or
development of standard operating procedures, whereby Department contractors can
avoid paying local taxes.

Recommendation 5: Embassy Ulaanbaatar, in coordination with the Bureau of
Diplomatic Security and the Bureau of Overseas Buildings Operations, should develop
and implement a plan to recover all value added taxes the U.S. Government pays to the
Government of Mongolia, either directly or through a contractor, in the process of
renovating the embassy’s chancery and annex. (Action: Embassy Ulaanbaatar, in
coordination with DS and OBO)

Embassy Renovation Project Move Coordination

       The management section’s most important responsibility in the next several
years will be to support the complex procurement and move scheduling requirements for
                                     15
                         SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

the renovation project. In FY 2011, the embassy must procure furniture and furnishings
valued at approximately $600,000 to meet the project’s milestones. The embassy is in
the process of obtaining funding for this furniture from the Bureau of East Asian and
Pacific Affairs and tenant agencies. Successful implementation of the renovation project
will require input and coordination from various sections within the embassy. Forming a
working group will help the embassy to efficiently manage the numerous tasks.

Recommendation 6: Embassy Ulaanbaatar should convene a chancery/annex
renovation working group to meet monthly to review the project’s status, requirements,
and milestones. (Action: Embassy Ulaanbaatar)

Management Notices

        The embassy does not have a complete set of management notices and policies
on the use of official vehicles, rest and recuperation travel, procurement procedures, and
other mission policies and processes. Department regulations require each embassy to
issue such policies, most notably a designations list that identifies statutory and
regulatory responsibilities at post. Regulations at 2 FAM 113.3 a. require that a post
make designations by written memorandum of specific responsibilities for embassy
operations. These designations include important internal controls duties such as
safeguarding government property, certifying vouchers for payment, authorizing travel,
and carrying out a wide range of other duties essential to ensuring efficient post
operations. Regularly issuing management policies creates a positive environment for
internal controls and keeps the embassy community informed about administrative
procedures.

Recommendation 7: Embassy Ulaanbaatar should develop a list of standard
management notices and policies to be issued over the course of a calendar year and
reissue these policies annually. (Action: Embassy Ulaanbaatar)

Human Resources

        The human resources unit delivers satisfactory services. It relies heavily on
regional support from Embassy Seoul, which includes a weekly teleconference and
regular visits from the regional human resources officer. The embassy also has
outsourced the function of LE position classification to Embassy Bangkok, a practice
that has reduced workload but has customer service implications.

        Wage inflation and competition from mining industry employers have reduced
the embassy’s ability to attract and retain qualified LE staff. Attrition stood at 13 percent
in 2010, and the embassy reports a steady decrease in the number of qualified applicants
for embassy jobs. The embassy has requested an exception to the worldwide salary
freeze, citing deteriorating labor market conditions and a stronger local currency as
factors contributing to a decline in salary competitiveness. Aside from the issue of
compensation, morale among local employees is good.


                                      16
                          SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED


American Employee Evaluation Reports

        The embassy does not have a system for tracking the status of American
employee evaluation reports. Regulations at 3 FAH-1 H-2813.3-6 require that the
embassy ensure that all elements of the performance evaluation process are carried out
in a timely manner. During the past year, at least one American employee evaluation
was submitted late. The use of a spreadsheet to monitor preparation of these reports is
standard practice at other overseas missions and could be delegated to a cleared
American family member who works in the human resources office. The lack of a
tracking system increases the risk that performance management will not be carried out
effectively.

Recommendation 8: Embassy Ulaanbaatar should develop and implement a tracking
system for employee evaluation reports and work requirements statements, and should
submit monthly updates to the deputy chief of mission. (Action: Embassy Ulaanbaatar)

Locally Employed Staff Evaluation Reports

         The embassy does not have adequate procedures to ensure that LE staff
evaluation reports are prepared in a timely manner. At the time of the inspection, about a
dozen such reports were overdue. Regulations at 3 FAH-2 H-135.5 A. (2) require that
supervisors prepare annual performance evaluations for LE staff. Timely evaluation of
local employees is an important responsibility, and supervisors must be held accountable
for it. Failure to prepare evaluations results in a delay in within grade pay increases and
diminishes the effectiveness of the embassy’s local employee performance management.

       Informal Recommendation 9: Embassy Ulaanbaatar should forward to the
       deputy chief of mission a monthly update listing overdue local employee
       evaluation reports.

Locally Employed Staff Training

         The embassy has instituted several policies for LE staff training that may be
overly restrictive. For example, the embassy requires local employees who receive
government-sponsored training to sign an agreement that they will repay the U.S.
Government the cost of training if they accept another position in the embassy or with
an outside employer within 2 years. The embassy also does not allow new employees to
receive training in the first year of their employment. These policies are unusually
restrictive and have the effect of discouraging employees from seeking training that is
necessary for their jobs. Training is required by regulation for many local employees,
such as consular section employees and the embassy’s Class B cashier. Because the
embassy has not issued a written training policy, American supervisors and local
employees do not clearly understand current practices and procedures. Managers need a
clearly articulated training policy that is consistent with the local compensation plan so
that they can equitably plan and provide training for their LE staff.


                                     17
                         SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED

       Informal Recommendation 10: Embassy Ulaanbaatar should issue a
       management notice on training policy for locally employed staff that balances
       training needs against stewardship of U.S. Government resources.

Equal Employment Opportunity

        The embassy has not had a trained Equal Employment Opportunity counselor for
nearly 2 years, but it has designated an incoming officer to receive the required training
this summer. Some female LE staff members expressed concern regarding inappropriate
workplace behavior on the part of local supervisors. It is important for the embassy to
continue its efforts to revitalize its Equal Employment Opportunity program to allow
both American and LE staff a mechanism for raising potential Equal Employment
Opportunity concerns.

       The embassy has made reasonable accommodation for a visually disabled LE
staff member who uses a guide dog.

Mongolian Language Proficiency

        The embassy has 10 Mongolian language-designated positions, including 7
designated at the general professional proficiency level (3/3). Facility with the
Mongolian language is important for conducting diplomacy and public outreach,
because not many Mongolians speak English at a high level of proficiency. Most
employees who occupy language-designated positions have met the required language
proficiency levels specified for their positions. About 10 employees participate in the
post’s language training program.

Financial Management

        The management officer directly supervises the financial management unit. The
majority of the unit’s LE staff members have been hired in the past year and need
training. Accounting and vouchering operations are satisfactory, but procedural areas
such as year-end planning and clearing in-transit cashier items could be improved.
Cashier operations require closer supervision. The OIG team counseled staff on ways to
operate more efficiently, such as consolidating the travel vendor’s invoices into a single
monthly payment, canceling vouchers at the time of payment, and making all employee
reimbursement transactions by electronic funds transfer.

Regional Financial Management Support

       The Department does not provide regional financial management support to
Embassy Ulaanbaatar. Both the management officer and local staff would benefit from
working with more experienced counterparts in a neighboring mission, such as Embassy
Seoul or Embassy Beijing. For example, cashiering services, discussed further in the
management controls section of this report, need attention in order to correct
management controls issues.

                                     18
                         SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Recommendation 9: The Bureau of East Asian and Pacific Affairs should designate a
neighboring post to provide financial management regional support to Embassy
Ulaanbaatar and arrange a regular schedule of support visits. (Action: EAP, in
coordination with Embassy Ulaanbaatar)

Locally Employed Certifying Officer

        The management officer is the principal certifying officer for vouchers at this
post. Voucher processing comprises about a third of the financial management unit’s
workload. The embassy does not currently have an LE staff member designated to
certify vouchers, which would ease the management officer’s workload. The financial
specialist has the requisite skills and abilities to assume this responsibility, after training
and formal designation as a certifying officer.
        Informal Recommendation 11: Embassy Ulaanbaatar should designate the
        financial specialist to receive training as a certifying officer.

International Cooperative Administrative Support Services

        The embassy’s International Cooperative Administrative Support Services
(ICASS) council meets regularly and maintains minutes of its deliberations. Interagency
discussions occasionally have been contentious. Two agencies have refused to sign
ICASS invoices in the past 2 years, citing concerns about services and disagreement
about workload counts. The management section requested the establishment of new
positions at various times over the course of the last fiscal year, which created
difficulties for agency members whose parent agencies do not have the flexibility to
change funding levels outside established budget timeframes. Interagency agreement on
the proper way to charge for reduced work count subscriptions has been elusive. The
embassy can address these problems by providing training for incoming council
members on the purpose and function of ICASS. The DCM’s continued involvement in
ICASS issues also will be helpful.

        Informal Recommendation 12: Embassy Ulaanbaatar should provide annual
        training for new International Cooperative Administrative Support Services
        council members on the function, purpose, and mechanics of International
        Cooperative Administrative Support Services.

        Informal Recommendation 13: Embassy Ulaanbaatar should consolidate
        requests for additional International Cooperative Administrative Support
        Services resources and positions, in coordination with International Cooperative
        Administrative Support Services customer agencies.

General Services

        The general services unit provides good service. A first-tour general services
officer has streamlined operations and obtained training for his staff. The travel and
transportation unit is in transition as it implements the Department’s standard electronic

                                       19
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

travel application and prepares to select a new travel contractor. Other services, such as
property management, the motor pool, and procurement function well operationally,
although the embassy needs to make the internal controls improvements described later
in the report.

Housing

         Satisfaction with the housing program is high. The majority of embassy
employees live in short-term leased housing at an attractive and functional compound.
This compound includes amenities such as a community center, the medical unit,
recreation facilities, and backup generators. A small but growing number of employees
live in housing located farther from the chancery at two other compounds, which do not
offer comparable amenities and facilities maintenance support. In particular, these
facilities lack backup generators and backup water tanks, deficiencies that the embassy
is in the process of addressing with landlords and OBO. Strengthened support to these
facilities will assist in addressing a perceived inequity in housing assignments that
undercuts the otherwise good morale at the embassy.

Facilities and Real Property

        The embassy’s small facilities maintenance unit delivers good service to the
embassy community. The facilities unit oversaw implementation of the embassy’s
Greening Diplomacy Initiative, which won the Department’s first-ever Greening
Diplomacy Award. Initiatives included calculation of the embassy’s carbon footprint,
replacement of inefficient light fixtures, and a tree planting program that received
favorable local media coverage. The facilities unit is much leaner than would be normal
at a post of this size, because most embassy housing is leased from a landlord who is
responsive and efficient. The unit has satisfactorily addressed outstanding fire and life
safety deficiencies in the chancery.

Information Management

        The information management section’s staffing level, when everyone is in place,
is appropriate to the workload. However, the section is frequently challenged by the
absence of one of the two U.S. direct-hire employees, which affects its ability to provide
adequate customer support, as reflected in the low customer satisfaction scores on the
OIG survey referenced above. For instance, at the time of the OIG inspection, the
information management officer was absent from post for a 2-month period, and the
transfer of the information management specialist was imminent. The second-tour
information management specialist has managed the section on his own for extended
periods, despite a lack of sufficient mentoring. There is no one at the embassy with the
training to assist in staffing gaps or emergencies. Additionally, 3 of the 5 LE staff
members have less than 1 year of experience at the embassy. Thus, the section lacks the
capacity to operate efficiently or proactively; its time and energy are consumed by
performing routine tasks and meeting basic customer service requirements. The increase
in congressional delegations and high level visitors during the short Mongolian summer
further strains the section’s capacity.
                                      20
                          SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED

Recommendation 10: The Bureau of East Asian and Pacific Affairs, in coordination
with Embassy Ulaanbaatar, should schedule a long-term assignment for a temporary
duty employee to assist the embassy’s information management section until it is
appropriately staffed. (Action: EAP, in coordination with Embassy Ulaanbaatar)

       Informal Recommendation 14: Embassy Ulaanbaatar should identify and secure
       appropriate training and clearances for an American employee to perform basic
       system management tasks.

        The recently appointed LE staff supervisor has 5 years’ experience as system
administrator but has not received supervisory training. Supervisors without proper
training cannot lead and direct staff effectively.

       Informal Recommendation 15: Embassy Ulaanbaatar should arrange
       supervisory training for the information management section’s locally employed
       staff supervisor.

        The air filtration system in the enclosed information program center does not
effectively remove contaminants. The planned renovation will alleviate this condition in
the long run. Meanwhile, the information program center’s environment should be kept
clean.

Recommendation 11: Embassy Ulaanbaatar should procure and install high-efficiency
particulate filters for the information program center. (Action: Embassy Ulaanbaatar)
       (b) (5)




Recommendation 12: (b) (5)



       (b) (5)




       Informal Recommendation 16: (b) (5)


        Posts are required, per 12 FAM 629.4-4 c., to ensure that air conditioning and
humidity controls and gauges are installed in the computer room to ensure that the
environment is maintained within the specifications established by the equipment
manufacturers. The information systems center server room does not have a temperature
sensor to warn operators of potential overheating. The network servers and devices
                                     21
                         SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED

create heat that could cause the servers and devices to malfunction if the air conditioning
units fail, resulting in high replacement costs. A temperature sensor would allow for
mitigation of loss of air conditioning.

       Informal Recommendation 17: Embassy Ulaanbaatar should install a
       temperature sensor in the information systems center to notify staff if the center
       is about to overheat.
       (b) (5)




       Informal Recommendation 18: (b) (5)




                                     22
                         SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


Quality of Life
Medical Unit

        The medical unit is under the capable direction of a Foreign Service health
practitioner. She is assisted by a full-time LE physician, who is also the post medical
adviser. The regional medical officer in Seoul provides oversight, and visits four times a
year.

        The medical unit occupies several basement rooms in the housing complex
where most, but not all, American employees live. There is no private entrance; patients
enter through a recreation room or through a back door, passing local guard changing
rooms to get to the medical unit. Although it is convenient for those eligible family
members who live on the housing compound, the unit’s distance from the chancery
makes it difficult to provide occupational health and medical services to employees
during the workday. The facility also is damp and dark in the winter.

        The chancery renovation plan does not include space for the medical unit.
Instead, there is space planned for a “wellness room,” where medical staff could carry
out administrative duties while at the chancery. This room does not have space for an
exam table, lavatory, or storage of medical supplies, and so could not serve as a clinic.
This arrangement limits the embassy’s ability to provide high-quality medical services
in the chancery, and it may need to be revisited in the future.

       The health practitioner encourages appointments, although there are some walk-
ins. Medical records and controlled substances are properly stored in secure containers.
The medical staff trains local guards and drivers as first responders. The local guard
mobile patrol vehicle is equipped with a trauma kit and a portable stretcher, so it can be
used as an ambulance. Trauma kits also are placed throughout the chancery, in the safe
haven, and in the waiting room area adjacent to the front gate. The medical unit has
published protocols for their use.

        The embassy has a contract with a private medical services provider to supply
emergency services to its American employees, at a cost of approximately $1,500 per
employee per year. The contractor can provide hospitalization, radiology, laboratory
work, ultrasound, and trauma stabilization, services that are not available outside
working hours at public or private hospitals. Given the current lack of adequate health
care facilities in Mongolia, the OIG team concluded that continuation of this contract is
justified.

Community Liaison Office

       The community liaison office coordinator operates a very strong program. Good
morale in the community is not a given in this isolated post, which is afflicted much of
the year by extreme cold and air pollution. The coordinator devoted considerable time to
developing a customized orientation program for new arrivals and actively programming

                                      23
                          SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED

events for the entire community, including LE staff. The coordinator actively
participates in emergency action committee meetings; this engagement could be
supplemented with activities addressing crisis management and emergency
preparedness.

       Informal Recommendation 19: Embassy Ulaanbaatar should organize personal
       preparedness seminars and conduct crisis management awareness activities to
       better prepare the embassy community for emergencies.

Schools

       (b)(5)(b)(6)                              the Department-assisted school, was
founded in 1992. Since 2007, it has occupied an attractive, purpose-built facility. The
school’s multinational board of directors provides for one representative from the
mission, currently the DCM. (b)(5)(b)(6)


                       and does not provide enough options to be considered adequate
under Department standards. (b)(5)(b)(6)
                                because of the small size of the student body and the
need to meet International Baccalaureate requirements, the options for courses are very
limited. Unlike many other Department assisted schools,(b)(5)(b)(6)
                                                                        Nevertheless, the
school took steps in 2009 and 2010 to improve staff resources in order to provide
college counseling.




                                     24
                         SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED


Management Controls
        Management controls at Embassy Ulaanbaatar need attention. The Ambassador
signed the annual chief of mission management controls certification in 2010. The
certification noted steps the mission had taken to identify fraudulent travel vouchers
submitted by embassy employees. The OIG team found internal controls deficiencies in
financial management, general services, and consular operations.

Cashier Operations

        Cashiering internal controls need improvement. At the time of the inspection, the
alternate Class B cashier was providing services, because of the long-term absence of
the principal cashier. However, the alternate Class B cashier’s temporary designation
had expired, and she had not received the cashier training required by 4 FAH-3 H-393.1-
1 c. to maintain the designation. Her accountable cashiering documents are not
maintained properly, and several in-transit items could not be located during a pro forma
cash count. The alternate Class B cashier needs more supervision, training, and
oversight.

        The embassy has not issued a management policy for cashier operations.
Regulations at 4 FAH-3 H-399.4-2 a. require that the embassy issue a policy that
explains the need for cash payments and outlines operating procedures for the cashier
and embassy customers. The inspectors found a number of cashiering related internal
controls issues that must be corrected. These include a lack of documentation that
supervisors were conducting quarterly cash counts, an excessive number of subcashiers,
subcashiers whose job duties included procurement, payment of employee
reimbursements over $25 in cash, payment of invoices without American signatures, and
payments made without fiscal data. These practices are contrary to regulation and could
allow fraud or misuse of government resources to occur.

Recommendation 13: The Bureau of East Asian and Pacific Affairs, in coordination
with Embassy Ulaanbaatar, should arrange for a temporary duty visit by a neighboring
post’s Class B cashier, to provide training and assist the embassy to establish proper
cashiering procedures. (Action: EAP, in coordination with Embassy Ulaanbaatar)

Home-to-Office Collections Procedures

       The embassy is incorrectly depositing collections for unofficial use of
government vehicles as refunds. Regulations at 4 FAH-3 H-322 b. (4) require that these
be deposited to the U.S. Treasury account as miscellaneous receipts.

       Informal Recommendation 20: Embassy Ulaanbaatar should credit the correct
       U.S. Treasury account for collections of fees for home-to-office transportation.




                                     25
                         SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED


Procurement and Contracting

        The procurement unit does not maintain written documentation of procurement
actions required by regulations. Federal Acquisition Regulation 4.802 (f) allows
agencies to retain electronic records, but requires retention of the same information as
would be contained in a paper contract file. When the embassy implemented the
Department’s electronic procurement system, it decided to maintain files primarily in
electronic format. In reviewing procurement records, the OIG team found that contracts,
purchase orders, and blanket purchase agreements were missing required
documentation, such as evidence of price competition.

Recommendation 14: Embassy Ulaanbaatar should implement standard operating
procedures to maintain complete procurement records in its files. (Action: Embassy
Ulaanbaatar)

Blanket Purchase Agreements

        Embassy Ulaanbaatar has executed more blanket purchase agreements than it
may require. It also has agreements with a large number of vehicle and translation
services. Most of these services were used only once or twice during FY 2010, while a
few were used the majority of the time. The records for the agreements did not show
evidence of competition for transactions over the $3,000 threshold. Federal Acquisition
Regulation 13.303-5 (d) requires that the contracting officer ensure maximum
practicable competition for blanket purchase agreements. Blanket purchase agreements
typically should be established with more than one qualified supplier for supplies or
services of the same type, and purchases should be distributed equally among qualified
suppliers to provide maximum practicable competition.

Recommendation 15: Embassy Ulaanbaatar should review and restructure all blanket
purchase agreements to allow for maximum practicable competition. (Action: Embassy
Ulaanbaatar)

Nonexpendable Property Internal Controls

        The embassy does not properly separate duties for the control of personal
property. The warehouse supervisor is responsible for all aspects of disposing of
property and maintaining property transfer records. Regulations at 14 FAM 411.2 d.
require that no individual be in the position to control all aspects of any transaction
affecting the receipt, storage, or disposition of expendable and nonexpendable property.
In the absence of proper separation of duties, diversion of government property could go
undetected.

Recommendation 16: Embassy Ulaanbaatar should designate in writing an employee
other than the property supervisor to maintain property accountability records. (Action:
Embassy Ulaanbaatar)


                                     26
                         SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


Consular Management Controls

        The section chief is the designated accountable consular officer for fees, with the
ELO serving as the alternate. The designation letters were updated during the inspection
to correct minor errors. The regional consular officer recently had reviewed cash
accounting procedures with the consular chief, and end-of-month reports were up to
date. As the section and workload have grown, the consular section would benefit from
closer tracking of management and accountability tasks to make sure deadlines are met.

       Informal Recommendation 21: Embassy Ulaanbaatar, with the help of the
       regional consular officer in Bangkok, should create and use a consular
       management calendar to track deadlines for daily, weekly, monthly, and annual
       management reports and responsibilities.

        The ELO serves as administrator for access to consular systems. The OIG team
reviewed the access records and found that the user roles were correct. The DCM was
conducting meaningful reviews of visa adjudications, but not frequently enough. The
OIG team explained the importance of this process. Consular cashiers were designated
correctly, with separate advances. The team found no cash anomalies, although one (an
overage) had occurred recently. The consular chief and the management officer
addressed this anomaly and reconciled fiscal records during the inspection.

        Completion of the annual certification of consular management controls offers an
excellent opportunity for the consular chief to review management practices with the
DCM and to identify areas for improvement. The embassy’s March 2011 certification
did not identify the deficiencies in the visa referral system noted earlier in the report. It
also did not reveal the inconsistencies in cash accounting and access to systems that
were subsequently corrected with the assistance of the regional consular officer.

Recommendation 17: Embassy Ulaanbaatar should conduct a comprehensive review of
consular management controls, backing up its certification with primary evidence of the
assertions made in the document. (Action: Embassy Ulaanbaatar)




                                      27
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


List of Recommendations
Recommendation 1: Embassy Ulaanbaatar, in coordination with the Bureau of
Democracy, Human Rights and Labor, should designate primary and secondary
coordinators for the Leahy vetting program and should provide the training and
authorization they need to use the International Vetting and Security Tracking system.
(Action: Embassy Ulaanbaatar, in coordination with DRL)

Recommendation 2: Embassy Ulaanbaatar should issue an annual, mission-wide
notice explaining Leahy vetting requirements, including the requirement that relevant
embassy sections, such as the regional security office, consular section, and Defense
attaché, participate in the clearance process. (Action: Embassy Ulaanbaatar)

Recommendation 3: Embassy Ulaanbaatar should create a written plan,
supplementary to the Mission Strategic and Resource Plan, to integrate the use of public
diplomacy tools into embassy work on all appropriate goals. (Action: Embassy
Ulaanbaatar)

Recommendation 4: Embassy Ulaanbaatar should promulgate in a management
notice the Department’s most current visa referral policy, along with post-specific
procedural guidelines; require all referring officers, before referring any more visa
applicants, to attend a briefing on the new policy and certify that they understand it; and
update and maintain the embassy’s records regarding the referring officers’ compliance
with this directive. (Action: Embassy Ulaanbaatar)

Recommendation 5: Embassy Ulaanbaatar, in coordination with the Bureau of
Diplomatic Security and the Bureau of Overseas Buildings Operations, should develop
and implement a plan to recover all value added taxes the U.S. Government pays to the
Government of Mongolia, either directly or through a contractor, in the process of
renovating the embassy’s chancery and annex. (Action: Embassy Ulaanbaatar, in
coordination with DS and OBO)

Recommendation 6: Embassy Ulaanbaatar should convene a chancery/annex
renovation working group to meet monthly to review the project’s status, requirements,
and milestones. (Action: Embassy Ulaanbaatar)

Recommendation 7: Embassy Ulaanbaatar should develop a list of standard
management notices and policies to be issued over the course of a calendar year and
reissue these policies annually. (Action: Embassy Ulaanbaatar)

Recommendation 8: Embassy Ulaanbaatar should develop and implement a tracking
system for employee evaluation reports and work requirements statements, and should
submit monthly updates to the deputy chief of mission. (Action: Embassy Ulaanbaatar)

Recommendation 9: The Bureau of East Asian and Pacific Affairs should designate a
neighboring post to provide financial management regional support to Embassy


                                      28
                          SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED

Ulaanbaatar and arrange a regular schedule of support visits. (Action: EAP, in
coordination with Embassy Ulaanbaatar)

Recommendation 10: The Bureau of East Asian and Pacific Affairs, in coordination
with Embassy Ulaanbaatar, should schedule a long-term assignment for a temporary
duty employee to assist the embassy’s information management section until it is
appropriately staffed. (Action: EAP, in coordination with Embassy Ulaanbaatar)

Recommendation 11: Embassy Ulaanbaatar should procure and install high-
efficiency particulate filters for the information program center. (Action: Embassy
Ulaanbaatar)

Recommendation 12: (b) (5)



Recommendation 13: The Bureau of East Asian and Pacific Affairs, in coordination
with Embassy Ulaanbaatar, should arrange for a temporary duty visit by a neighboring
post’s Class B cashier, to provide training and assist the embassy to establish proper
cashiering procedures. (Action: EAP, in coordination with Embassy Ulaanbaatar)

Recommendation 14: Embassy Ulaanbaatar should implement standard operating
procedures to maintain complete procurement records in its files. (Action: Embassy
Ulaanbaatar)

Recommendation 15: Embassy Ulaanbaatar should review and restructure all blanket
purchase agreements to allow for maximum practicable competition. (Action: Embassy
Ulaanbaatar)

Recommendation 16: (b) (5)



Recommendation 17: Embassy Ulaanbaatar should conduct a comprehensive review
of consular management controls, backing up its certification with primary evidence of
the assertions made in the document. (Action: Embassy Ulaanbaatar)




                                     29
                         SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED


List of Informal Recommendations
       Informal recommendations cover operational matters not requiring action by
organizations outside the inspected unit and/or the parent regional bureau. Informal
recommendations will not be subject to the OIG compliance process. However, any
subsequent OIG inspection or on-site compliance review will assess the mission’s
progress in implementing the informal recommendations.

Informal Recommendation 1: Embassy Ulaanbaatar should make appropriate use of
the State Messaging and Archive Retrieval Toolset record email function.

Informal Recommendation 2: Embassy Ulaanbaatar should include all mission
elements in contributions to biographic reporting.

Informal Recommendation 3: Embassy Ulaanbaatar should direct the political officer
who oversees grant funds to complete appropriate Foreign Service Institute distance
learning courses in grants management.

Informal Recommendation 4: Embassy Ulaanbaatar should make outreach calls to
promote the use of its Information Resource Center.

Informal Recommendation 5: Embassy Ulaanbaatar should review the book
collection at the American Corners in Ulaanbaatar and Khovd and donate any materials
it removes from the collection to an appropriate Mongolian institution.

Informal Recommendation 6: Embassy Ulaanbaatar should update its public Web site
every workday.

Informal Recommendation 7: Embassy Ulaanbaatar should prepare country-specific
information about international parental child abduction, for public dissemination on the
Department’s consular affairs Web site.

Informal Recommendation 8: Embassy Ulaanbaatar should provide all Visas Viper
representatives with a clear explanation of the benefits of the Visas Viper program and
examples of the breadth of submissions that other posts have made through the program.

Informal Recommendation 9: Embassy Ulaanbaatar should forward to the deputy
chief of mission a monthly update listing overdue local employee evaluation reports.

Informal Recommendation 10: Embassy Ulaanbaatar should issue a management
notice on training policy for locally employed staff that balances training needs against
stewardship of U.S. Government resources.

Informal Recommendation 11: Embassy Ulaanbaatar should designate the financial
specialist to receive training as a certifying officer.

Informal Recommendation 12: Embassy Ulaanbaatar should provide annual training
for new International Cooperative Administrative Support Services council members on
                                     30
                         SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

the function, purpose, and mechanics of International Cooperative Administrative
Support Services.

Informal Recommendation 13: Embassy Ulaanbaatar should consolidate requests for
additional International Cooperative Administrative Support Services resources and
positions, in coordination with International Cooperative Administrative Support
Services customer agencies.

Informal Recommendation 14: Embassy Ulaanbaatar should identify and secure
appropriate training and clearances for an American employee to perform basic system
management tasks.

Informal Recommendation 15: Embassy Ulaanbaatar should arrange supervisory
training for the information management section’s locally employed staff supervisor.

Informal Recommendation 16: (b) (5)


Informal Recommendation 17: Embassy Ulaanbaatar should install a temperature
sensor in the information systems center to notify staff if the center is about to overheat.

Informal Recommendation 18: (b) (5)


Informal Recommendation 19: Embassy Ulaanbaatar should organize personal
preparedness seminars and conduct crisis management awareness activities to better
prepare the embassy community for emergencies.

Informal Recommendation 20: Embassy Ulaanbaatar should credit the correct U.S.
Treasury account for collections of fees for home-to-office transportation.

Informal Recommendation 21: Embassy Ulaanbaatar, with the help of the regional
consular officer in Bangkok, should create and use a consular management calendar to
track deadlines for daily, weekly, monthly, and annual management reports and
responsibilities.




                                      31
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


Principal Officials
                                                  Name      Arrival Date
Ambassador                             Jonathan Addleton         11/2009
Deputy Chief of Mission                     Nicholas Hill         8/2008

Chiefs of Sections:
  Management                            Charles Bouldin          8/2009
  Consular                                Philip Cargile         9/2010
  Political                           Andrew Covington           8/2008
  Economic                                Vincent Spera          7/2008
  Public Affairs                        Marissa Maurer           7/2008
  Regional Security                     Timothy Feeney          12/2009

Other Agencies:
  Department of Defense              LTC Jonathan Lau            7/2010
  Peace Corps                           Ellen Paquette           8/2010
  Millennium Challenge Corporation        Robert Reid            4/2008
  U.S. Agency for International
  Development                           Charles Howell         11/2009




                                      32
                          SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED


Abbreviations

BBG                Broadcasting Board of Governors
DCM                Deputy chief of mission
Department         Department of State
EEO                Equal Employment Opportunity
ELO                Entry-level officer
ESTH               Environment, science, technology, and health
ICASS              International Cooperative Administrative Support Services
LE                 Locally employed
MCC                Millennium Challenge Corporation
MSRP               Mission Strategic and Resource Plan
OBO                Bureau of Overseas Buildings Operations
OIG                Office of Inspector General
RSO                Regional security officer
USAID              United States Agency for International Development




                            33
                SENSITIVE BUT UNCLASSIFIED
              SENSITIVE BUT UNCLASSIFIED
   SENSITIVE BUT UNCLASSIFIED




FRAUD, WASTE, ABUSE,
OR MISMANAGEMENT
of Federal programs hurts everyone.



           Contact the
   Office of Inspector General
          HOTLINE
to report illegal or wasteful activities:


             202-647-3320
             800-409-9926

         oighotline@state.gov

             oig.state.gov


      Office of Inspector General
       U.S. Department of State
            P.O. Box 9778
         Arlington, VA 22219


   Cables to the Inspector General
  should be slugged “OIG Channel”
      to ensure confidentiality.




   SENSITIVE BUT UNCLASSIFIED
